No. 20-5166
IN THE

Supreme Court of the United States
J.J.H.,
Petitioner,
v.
WAUKESHA COUNTY, WISCONSIN
Respondent.

CERTIFICATE OF WORD COUNT
As required by Supreme Court Rule 33.1(h), I certify that the motion contains 391
words, and the brief contains 5,878 words, excluding the parts of the document that are
exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on August 19, 2020.

/s/ Gabriel K. Gillett
Gabriel K. Gillett

